    Office of Inspector General
   U.S. Department of State and
 Broadcasting Board of Governors

Program Performance Report
      Fiscal Year 2002




         Clark Kent Ervin
        Inspector General
                                                                                                 Table of Contents

Vision and Mission ....................................................................................................................................................................................................          A-1
Executive Summary...................................................................................................................................................................................................             A-1
Table of Strategic and Performance Goals and FY 2002 Results.............................................................................................................................                                        A-3
Performance Data Quality and Limitations ...............................................................................................................................................................                         A-4
Meeting Unmet Goals................................................................................................................................................................................................              A-4
Performance Evaluations ...........................................................................................................................................................................................              A-5
Management Challenges............................................................................................................................................................................................                A-6
President’s Management Agenda ..............................................................................................................................................................................                     A-6
Budget Information....................................................................................................................................................................................................           A-6
Effect of FY 2002 Performance on FY 2003 Performance Goals .............................................................................................................................                                         A-6
Performance Results by Strategic Goal .....................................................................................................................................................................                      A-8
  Foreign Policy ........................................................................................................................................................................................................        A-8
    Performance Goal 1 ............................................................................................................................................................................................             A-10
    Performance Goal 2 ............................................................................................................................................................................................             A-11
    Performance Goal 3 ............................................................................................................................................................................................             A-12
  Security ..................................................................................................................................................................................................................   A-13
    Performance Goal 1 ............................................................................................................................................................................................             A-15
    Performance Goal 2 ............................................................................................................................................................................................             A-16
    Performance Goal 3 ...........................................................................................................................................................................................              A-17
  Financial Management and Administrative Support Systems ...............................................................................................................................                                       A-18
    Performance Goal 1 ............................................................................................................................................................................................             A-20
    Performance Goal 2 ............................................................................................................................................................................................             A-21
  Accountability........................................................................................................................................................................................................        A-22
    Performance Goal 1 ............................................................................................................................................................................................             A-24
    Performance Goal 2 ............................................................................................................................................................................................             A-25
  Internal Enabling Goals .........................................................................................................................................................................................             A-26
    Performance Goal 1 ............................................................................................................................................................................................             A-28
    Performance Goal 2 ............................................................................................................................................................................................             A-29




                                                                                                                           i
                                            OFFICE OF INSPECTOR GENERAL
                                                 2002 Performance Report

Our Vision

To support the Department of State and the Broadcasting Board of Governors (BBG) in achieving their missions as effectively, efficiently,
and economically as possible.

Our Mission

The mission of the Office of Inspector General (OIG) is to serve as an independent, objective reviewer and evaluator of the operations and
activities of the U.S. Department of State and the Broadcasting Board of Governors. We analyze those operations and activities with a
view toward promoting effectiveness, efficiency, and economy. We seek out instances of fraud, waste, abuse, and mismanagement, and
we work to prevent them. We report to the Secretary of State, the Broadcasting Board of Governors, and the Congress, keeping them fully
and currently informed of significant developments and serious concerns.

Executive Summary

This is the fourth annual performance report under the Government Performance and Results Act (Results Act). It represents the results of efforts
and accomplishments in support of OIG’s performance goals for FY 2002, a year of significant change, including a new Inspector General, a
complete reorganization of OIG’s structure, and totally revised OIG strategic and performance plans, goals, and measures for FY 2002 and
beyond.

The FY 2002 Performance Plan contains four strategic, ten performance, and two internal enabling goals, along with nineteen measures and
targets used to evaluate our success in achieving them. We have defined “Successful” as meeting or exceeding our target; “Partially Successful”
as missing our target, but showing improvement over FY 2001; and “Unsuccessful” as missing our target and declining in performance from FY
2001. Under these criteria, we were successful in nine (47%), partially successful in eight (42%), and unsuccessful in two (11%) of our measures.

On a more positive note, this year’s performance represented a substantial improvement over our FY 2001 results. Our performance for FY 2002
exceeded our FY 2001 performance on 84 percent of our measures. Furthermore, our FY 2002 results for 63 percent of our measures were better
than in any of the prior three years (1999-2001) for which data was available. Specifics of our performance and success in achieving our targets
for these measures are reported in more detail beginning on page 8.



                                                                        1
                              Success in Meeting FY 2002 Strategic and                Success in Meeting FY 2002 Strategic and
                                Internal Performance Goals Based on                     Internal Performance Goals Based on
                                      Measured Target Results                                 Significant Work Results

                                          IG1/PG2     SG1/PG1                                     IG1/PG2       SG1/PG1
                                     IG1/PG1               SG1/PG2                           IG1/PG1                 SG1/PG2

                                 SG4/PG2                       SG1/PG3                   SG4/PG2                        SG1/PG3

                                  SG4/PG1                      SG2/PG1                     SG4/PG1                      SG2/PG1

                                    SG3/PG2                 SG2/PG2                          SG3/PG2                 SG2/PG2
                                          SG3/PG1    SG2/PG3                                       SG3/PG1     SG2/PG3

                             Successful     Partially Successful   Unsuccessful       Successful     Partially Successful   Unsuccessful



In addition, we have highlighted under each strategic goal the qualitative accomplishments and results supporting our goals that are not captured
by our quantitative measures. These include:

   Ø Conducting a review of U.S. policy toward Venezuela to address Congressional questions as to whether the Department and/or Embassy
     Caracas had any involvement in the brief April 2002 overthrow of Venezuelan President Hugo Chavez. The review concluded that the
     Department’s and the embassy’s actions were consistent with U.S. law and policy in support of democracy and constitutionality (Foreign
     Policy).
   Ø Expanding OIG’s security inspections program, in the wake of September 11, 2001 terrorist attack, to provide “limited-scope” security
     inspections, by including a security inspector on each of the 21 post management inspections conducted during FY 2002, and identifying
     deficiencies in emergency procedure programs that are easily correctable with little or no additional resources and have a major impact on
     mission security (Security).
   Ø Highlighting overly restrictive requirements for employees to receive incentive differentials at several posts in Central Asia, which led the
     Department to issue less restrictive guidelines, increasing the chances that the incentive program will achieve its objective of retaining
     qualified employees at difficult-to-fill posts (Financial Management and Administrative Support Systems).
   Ø Completing 16 audits of Department and BBG contractors and grantees that identified more than $17.6 million in potential questioned
     costs or funds put to better use, and concluding the sentencing of two defendants convicted in a large-scale scheme to use the investor visa
     program fraudulently, resulting in $17.6 million in restitution to victims of the scheme (Accountability).
   Ø Implementing an automated Project Tracking System and OIG Timesheet System that together allow the Office of Inspector General to
     track more accurately the allocation of our resources to specific projects and the timeliness and cost of our products and activities (Internal
     Enabling Goal).

                                                                                  2
                                                             Table of Strategic and Performance Goals and FY 2002 Results

             Strategic Goal                                              Performance Goals                                                      Measure              Target                   1
                                                                                                                                                                                     Actual

    The Department and the              Identify opportunities for improving the management and operations of overseas         % of Recs. Resolved in 6 months        91%          62% (PS) ▲
    BBG effectively, efficiently,       missions, domestic bureaus, and international broadcasting activities through post
    and economically advance            management and thematic inspections, audits, and program evaluations.                  % of Recs. Closed in 1 year            70%          78% (S) ▲
    the foreign policy interests of     Evaluate at least eight U.S. Government operations and programs with foreign           Reports Issued                          8             8 (S) ▲
    the United States                   policy implications and recommend actions necessary to remove or overcome them.
                                        Increase the cumulative number/percentage of missions and selected bureaus             % of Missions Inspected within         77%          70% (PS) ▲
                                        inspected on a five-year cycle.                                                        last 5 years
    The Department and the              Evaluate at least six Department programs designed to improve security for its         Reports Issued                          6             7 (S) ▲
    BBG adequately protect the          people, buildings, and information, and identify any corrective actions necessary to
                                        ensure that they meet their stated goals.                                              % of Recs. Resolved in 6 Months        67%          82% (S) ▲
    people, information, and
    facilities under their control                                                                                             % of Recs. Closed in 1 year            82%          64% (PS) ▲
    in the United States and            Identify vulnerabilities and recommend corrective action with respect to               Missions Inspected                      10           7 (PS) ▲
    abroad                              information systems and security at no fewer than 10 overseas missions.

                                        Increase the cumulative number/percentage of missions and selected bureaus             % of Missions Inspected within         85%          79% (PS) ▲
                                        receiving security inspections and reviews on a five-year cycle.                       last 5 years

    The Department and the              Identify challenges and vulnerabilities, with recommendations to address them,         % of Recs. Resolved in 6 months        79%          44% (U) ▼
                                        for at least 15 Department financial and administrative support programs and
    BBG have the necessary
                                        activities.
    financial and support systems                                                                                              % of Recs. Closed in 1 year            92%          58% (PS) ▲
    and controls to meet legal
    and operational requirements                                                                                               Reports Issued                          15           21 (S) ▲
                                        Evaluate Department and BBG progress in measuring performance and linking              Reports Issued                          5             5 (S) ▲
                                        performance goals to budget, and recommend improvements, as appropriate.

    The Department and BBG              Identify a minimum of $3.75 million in potential monetary benefits as a result         $ value of Cost Savings,              $3.75     $40.04 million (S) ▲
                                        of audit and investigative recommendations                                                                                   million
    ensure accountability and                                                                                                  Efficiencies, Recoveries, and Fines
    prevent or eliminate fraud,
    waste, abuse, and                   Promote awareness and adherence to standards of professional and ethical conduct       % of Cases Closed within 200 days      61%          75% (S) ▲
                                        and accountability; where necessary, conduct thorough and expeditious
    mismanagement in programs                                                                                                  % of Cases Open less than 200 days     76%          50% (PS) ▲
                                        investigations of fraud, waste, abuse, and mismanagement.
    and operations
                                                                         Performance Goals                                                      Measure              Target                   1
                                                                                                                                                                                     Actual

                                        Attract and retain employees with the requisite skills and expertise                   Staff on Hand                          225          218 (U) ▼
       Internal Enabling Goal
                                                                                                                               Attrition Rate                         15%          13% (S) ▲
                                        Issue a final report or other product within 225 days of starting a project            Project Length                         225          250 (PS) ▲




1
    (S) = Successful; (PS) = Partially Successful; and (U) = Unsuccessful. Results in FY 2002 compared with those of FY 2001: ▲= Better            ▼= Worse



                                                                                                               3
Performance Data Quality and Limitations

The performance data in the FY 2002 report is the most complete and accurate data in any of the four OIG performance reports issued under
GPRA and meets the standards for reliability contained in Office of Management and Budget Circular A-11, section 232. For the first time, we
have four years of data for every measure, although our project length data for prior years is less complete and accurate than our FY 2002 data. In
addition, the results of prior years’ data for recommendations closed within one year of issuance as reported in the FY 2002 Performance Plan
have been restated, generally lower, as the result of computational errors that were discovered when calculating FY 2002 results. The data itself
comes from five basic sources:

   •   The OIG Compliance Analysis Tracking System (CATS)—six measures relating to recommendations;
   •   OIG reports—eight measures relating to missions reviewed, programs evaluated, reports issued, and potential monetary benefits;
   •   The OIG Case Management System (CMS)—two measures relating to investigative cases;
   •   OIG personnel records—two measures relating to staff on hand and the attrition rate; and
   •   The Project Tracking System (PTS)—one measure relating to project length.

Our internal controls and validation efforts lead us to believe that the data is as accurate and reliable as can be reasonably expected. For example,
CATS data is reconciled monthly with the individual issuing office records, and status reports then are provided to selected Department bureaus
for reconciliation with their records. Data found in OIG reports are indexed and referenced prior to issuance according to the professional
standards appropriate for that type of report. CMS and personnel data are reconciled by the Offices of Investigations and Administration,
respectively, prior to inclusion in the performance report. PTS data is reviewed and updated on a bi-weekly basis and, although there are
occasional discrepancies on timeliness data for individual projects, they have not been found to have any significant effect on the results.

For FY 2002 and beyond, our performance measures are directed almost entirely toward traditional measures of OIG success, including reports
issued, recommendations resolved and implemented, cost efficiencies identified, and fines and recoveries collected. We also have established a
new project tracking system and automated timesheet system that have improved significantly our ability to monitor both timeliness of our work
and alignment of resources with our goals. We are working to ensure that the data provided by this and complementary systems are as complete
and accurate as possible.

Meeting Unmet Targets

Overall, in FY 2002, we did not meet 53 percent of our targets. However, we met or exceeded our FY 2001 performance results for 84 percent of
the measures. In addition, our FY 2002 results represented four-year highs for 63 percent of our targets.




                                                                          4
                                Comparison of Results for Performance                  Percentage of Performance Measures Whose
                                  Measures in FY 2002 and FY 2001                          Best Results Were Achieved in that
                                                                                                 Respective Fiscal Year
                                       16%
                                                                                                                 11%

                                                                                                                                  21%



                                                              84%
                                                                                     63%
                                                                                                                            5%
                                   Better in FY 2002   Better in FY 2001                   FY 1999   FY2000   FY2001    Fy2002



For three of the 10 measures and targets that were not met, we have established revised targets in our FY 2003 Performance Plan that exceed those
expected, but missed, in FY 2002. The targets for the seven other measures have been readjusted to reflect an increase over our FY 2001
performance, although the expected results will still fall short of FY 2002 targets. The following table shows the year in which we expect to
achieve our unmet FY 2002 targets.

                                                   Schedule for Achieving Unmet FY 2002 Targets

SG/PG       SG1/PG1a       SG1/PG3      SG2/PG1c          SG2/PG2          SG2/PG3     SG3/PG1b SG3/PG1c SG4/PG2a                       IG1/PG1     IG1/PG2
Unmet FY                                                     10                                            76% in
2002          91%            77%             82%          missions          85%          79%       92%    200 days                      225 staff   225 days
Target                                                    reviewed                                         or less
FY in        FY 2005       FY 2004        FY 2005         FY 2003          FY 2003      FY 2005  FY 2007  FY 2005                       FY 2004     FY 2003
which        or 2006                      or 2006                                       or 2006   or FY
Target will                                                                                       2008
be Met or
Exceeded

Performance Evaluations

No performance evaluations or other formal assessments of OIG programs and operations were conducted during FY 2002. However, more than a
dozen OIG reviews conducted during FY 2002 have provided program evaluations of Department programs and operations, some of which have
been highlighted in the Department’s performance report.
                                                                     5
Management Challenges

OIG faced many of the same management challenges that the Department and other government entities were struggling to address, especially
those encompassed within the President’s Management Agenda (PMA) initiatives on strategic management of human capital, improving
financial performance, and better integrating budgeting with performance. As a result, OIG introduced two Internal Enabling Goals related to
our human resources and the timeliness of our projects, with a move toward tracking project costs beginning in FY 2002. As explained on pages
26 through 29, we were much less successful in achieving these goals in FY 2002 than we anticipated. However, we are continuing to address
them in FY 2003 and beyond.

President’s Management Agenda

Although OIG introduced several human resource initiatives (such as repayment of employee student loans) to attract and retain staff and
revamped its web site to make it more customer-oriented and useful, the majority of our activities supporting the PMA consisted of the audits,
inspections, and other reviews that focused on the human capital, financial management, outsourcing and rightsizing activities related to
Department and BBG programs and operations. Details of these activities are highlighted on page 27.

Budget Information

Obligations for FY 2002 totaled $29,194,706. This was expended in support of our strategic goals as follows:

Strategic Goal 1:     Foreign Policy                               $10.1 million         35% of resources
Strategic Goal 2:     Security                                     $ 6.7 million         23% of resources
Strategic Goal 3:     Financial Management and                     $ 7.0 million         24% of resources
                        Administrative Support
Strategic Goal 4:     Accountability                               $ 5.4 million         18% of resources


Effect of FY 2002 Performance on FY 2003 Performance Goals

After revising most of OIG’s performance goals, measures, and targets in each of our first four performance plans, our FY 2002 goals and
measures remain unchanged for FY 2003 and 2004. We also have included an additional performance measure under our second internal enabling
goal, which will track the percentage of projects completed within 183 days, 184 to 244 days, and more than 244 days. This new measure will
provide a more complete and accurate assessment of our progress in reducing the length of projects than can be shown by average project length
alone. Thirteen of our FY 2003 targets have been revised as a result of our FY 2002 performance results (see table that follows).

                                                                        6
                                           Revisions to FY 2003 Targets Resulting From FY 2002 Performance

SG/PG      SG1/PG1a   SG1/PG1b    SG1/PG2      SG1/PG3      SG2/PG1a      SG2/PG1b         SG2/PG1c         SG3/PG1a     SG3/PG1b       SG3/PG1c     SG4/PG1       SG4/PG2a   SG4/PG2b
Original     91%        70%           8           79%            6            70%               85%             15             82%         94%            $4.0     56%<100    50%<100
FY 2003                                                                                                                                                  million     4%@      6%@ 100-
Target                                                                                                                                                              100-200      200
                                                                                                                                                                                19%@
                                                                                                                                                                               201-300
                                                                                                                                                                              25%>300
Revised      85%        85%           9           73%            7            84%               67%             21             72%         72%            $7.8     50%<100    50%<100
FY 2003                                                                                                                                                  million     10%@       25%@
Target                                                                                                                                                              100-200    100-200
                                                                                                                                                                              8%@ 201-
                                                                                                                                                                                 300
                                                                                                                                                                              17%>300


In an effort to make our measures more meaningful as indicators of our success in achieving our performance goals, we have added two new
measures for FY 2003. The first measure—the percentage of “significant” (as identified by OIG) recommendations closed within one year of
issuance—has been added to the first performance goal under each of our strategic goals for Foreign Policy, Security, and Financial Management
and Administrative Support Systems. This new measure is intended to provide a more accurate picture of our success in getting the most
important recommendations implemented, since all recommendations are not of equal weight or impact. The second measure under our second
internal enabling performance goal is the percentage of projects completed within 6 months. We believe that, when combined with the average
number of days from project start to product issuance—which can be unduly influenced by the inclusion of a few very long or short projects—it
will provide a more balanced view of the timeliness of our products.

                                                             New Measures and Targets for FY 2003

                                                SG1/PG1c                  SG2/PG1d                       SG3/PG1d                    IG1/PG2b
                                                  50%                       50%                            50%                         65%
                                 Target           of significant            of significant                 of significant        of projects completed
                                   &           recommendations           recommendations                recommendations             within 183 days
                                 Measure     closed within one year    closed within one year         closed within one year
                                                   of issuance               of issuance                    of issuance



It should be noted that, as required under Office of Management and Budget Circular A-11, the OIG will be reviewing its Strategic Plan for
possible interim revisions due by March 31, 2003. If the strategic plan is revised, the first performance plan to be affected will be our plan for
FY 2004.

                                                                                       7
                                                                        Strategic Goal: Foreign Policy

The Foreign Service Act of 1980, as amended, mandates that the OIG assess the effectiveness of foreign policy implementation by reviewing activities and
operations performed under the direction of Chiefs of Mission for consonance with U.S. foreign policy. This responsibility—which is unique to the State
Department Office of Inspector General and the one most closely aligned with the mission of the Department—is an essential component of our overseas and
domestic inspections, intelligence oversight reviews, and audits of issues affecting foreign policy such as counterterrorism, counternarcotics, and visa programs.

OIG’s FY 2002 performance goals under this strategic goal have focused on identifying opportunities to improve the management and operations of foreign
policy and international broadcasting activities; identifying and recommending solutions to obstacles to oversight and coordination of foreign policy operations
and programs; and increasing the percentage of missions inspected at least once every five years, with the intention of inspecting all missions on a five-year
cycle by 2007. With respect to our success in meeting these respective goals, please see below:

•   Identify opportunities for improving the management and operations of overseas missions, domestic bureaus and international broadcasting activities
    through post management and thematic inspections, audits, and program evaluations. Our efforts to achieve this goal were only partially successful based
    on mixed results on our quantitative measure, but successful on the basis of our qualitative work, discussed below, that was performed and reported on in
    FY 2002. On our quantitative measures, we missed our target for recommendations resolved—that is, corrective actions accepted by management—by a
    substantial margin, although we bettered our FY 2001 performance. However, we exceeded our measure for recommendations implemented, which is a
    better overall measure of success, since it indicates that the desired corrective actions have been completed and the problem corrected.

•   Evaluate at least eight U.S. government operations and programs with foreign policy implications—especially those under Chiefs of Mission authority or
    related to international broadcasting and the free flow of information around the world—identify obstacles to Chief of Mission, Department, or BBG
    oversight and coordination of the operations and programs, and recommend actions necessary to remove or overcome them. Our efforts to achieve this
    goal were successful based on the results of both our quantitative measure and our qualitative work, discussed below, that was performed and reported on in
    FY 2002.

•   Increase the cumulative number/percentage of missions and selected bureaus inspected on a five-year cycle. Our efforts to achieve this goal were only
    partially successful in that we fell considerably short of our target, although we showed improvement over our FY 2001 performance.

                                                       Major Accomplishments in Support of This Strategic Goal


                         OIG Activity or Finding                                                                         Results

In response to a congressional request, the Inspector General led a review of U.S.   The OIG review addressed Congressional questions, finding that the Department’s and
policy toward Venezuela in the wake of the April 2002 brief overthrow of President   Embassy Caracas’s actions were consistent with U.S. law and policy in support of
Hugo Chavez.                                                                         democracy and constitutionality and finding no evidence to suggest that the
                                                                                     Department or Embassy Caracas planned, participated in, or encouraged the overthrow
                                                                                     of President Chavez.

                                                                                           8
                           OIG Activity or Finding                                                                           Results

Inspections of more than 40 overseas missions since September 11 have identified       OIG identified actions needed by the Department to address these concerns,
common themes involving embassy security, the war on terrorism, lack of                including re-examination of staffing numbers in light of the security situation and
personnel resources at hardship posts, insufficient public diplomacy resources, and    limited U.S. interests in some countries, revising Mission Performance Plans to
the need for significant additional resources to meet construction plans to address    reflect new policies and programs, and developing bureau “swat teams” of
security vulnerabilities.                                                              experienced officers to train FSN staff and correct problems.

Inspections of small, remote posts in the Pacific, Africa, the Caribbean, and Europe   OIG identified the contributions of these missions to homeland security through
identified found that these posts played a minor role in advancing homeland            their active public and bilateral diplomacy and expanded intelligence and consular
security, but did not fully understand the role they could play.                       surveillance, and encouraged the Department to provide expanded guidelines to help
                                                                                       them understand how they could more fully support U.S. homeland security
                                                                                       objectives.

As part of its support for the President’s Management Initiative, OIG reviewed the     OIG has assisted the Department in implementing its global rightsizing initiative by
staffing of overseas missions and found that the principle of retaining some U.S.      examining staffing levels at overseas posts, as the Department establishes common
representation in each place (“universality”) still has merit.                         criteria for its assessment of post staffing.

At the request of the Department, OIG reviewed costs incurred in conducting the        OIG’s verification of the costs of conducting the trial and the appropriate share of
trial of two Libyans accused of blowing up Pan Am flight 103 over Lockerbie,           incremental costs that the U.S. had agreed to pay for conducting the trial in the
Scotland.                                                                              Netherlands rather than in Scotland resulted in a $13 million cost savings for the
                                                                                       U.S. government.

A review of the BBG’s Middle East Broadcasting Activities identified weaknesses        This new program has benefited from OIG suggestions and recommendations in its
in BBG efforts to reach its predominantly Muslim Middle East audience.                 formative stages, including a commitment to integrate as much hard news and U.S.
                                                                                       government policy editorials as practicable into its youth-oriented music format as
                                                                                       quickly as possible.

A review of the administrative operations of Radio Free Europe/Radio Liberty           When fully implemented, OIG’s corrective actions will reduce the likelihood of host
(RFE/RL) found that the inadequate administrative support unit serving the bureaus     governments’ taking actions against RFE/RL bureaus or broadcasters by enabling
had the potential for providing host governments an excuse to shut down bureaus        staff better to keep pace with changes in applicable tax and social welfare benefit
or intimidate RFE/RL broadcasters.                                                     legislation in host countries.

A review of the BBG’s broadcast affiliates program found weak oversight and            OIG recommendations that BBG implement a strategic plan, improve its database,
coordination of the program.                                                           communicate with Department public affairs sections, and provide the resources to
                                                                                       accomplish this mission have significantly strengthened this program to promote the
                                                                                       free flow of information around the world.

An inspection of BBG regional operations in West Africa recommended prompt             BBG’s prompt, effective response to this challenge provided support for U.S.
action to put the Voice of America (VOA) on the air in Sierra Leone and Liberia        objectives in the region at a time of continuing regional instability; large numbers of
more effectively in support of U.S. goals of regional stability, humanitarian aid,     refugees, and internally displaced persons yet to return to their homes; and weak
and support for democracy.                                                             democratic institutions.



                                                                                              9
Performance Goal 1: Identify opportunities for improving the management
and operations of overseas missions, domestic bureaus and international                             Recommendations Resolved Within 6
broadcasting activities through post management and thematic inspections,                                 Months of Issuance
audits, and program evaluations.
MEASURE: Percentage of recommendations resolved within six months of                                 100%     84% 85%                    91%
issuance. FY 2002 Result: Partially Successful
                                                                                                      80%
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002                                       57% 62%
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET                  60%
     84%                85%                57%                62%                91%                  40%
MEASURE: Percentage of recommendations closed within one year of                                      20%
issuance. FY 2002 Result: Successful                                                                   0%
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002
                                                                                                             FY     FY     FY     FY     FY
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET                        1999 2000 2001 2002 2002
                                                                                                            Actual Actual Actual Actual Target
     79%                81%                85%                78%                70%
Success in meeting performance targets: Our success in meeting these targets was
mixed, and, overall, was below the performance levels of prior years. We fell
considerably short of our target on recommendations resolved within six months                     Recommendations Closed Within 1 Year
(showing some improvement over FY 2001, but far short of prior years). While we                               of Issuance
exceeded our target for recommendations closed within one year—a more important
measure since it indicates final action being achieved and problems corrected—we were
less successful than in the three prior years. The shortfall in recommendations resolved            100%                   85%
was due largely to staffing gaps in our compliance staff and, as we fell behind on that                      79%    81%          78%
target, the effort to focus our resources first on the more important target for closing             80%                                 70%
recommendations within a year. To address these shortcomings, we are looking to                      60%
ensure adequate staffing coverage and have formed a new compliance oversight
committee that will report to the IG quarterly to identify progress and issues in which a            40%
more proactive approach is needed to meet our FY 2003 targets. However, we do not
expect to achieve 91% for recommendations resolved within six months until 2005 or                   20%
2006, at the earliest.
                                                                                                      0%
Data quality and strategies to address data limitations: A computation error in data                         FY     FY     FY     FY     FY
reported in prior years was corrected (the data in this table reflects the correction), and                 1999 2000 2001 2002 2002
we have verified the accuracy and completeness of the FY 2002 data in our compliance
analysis tracking system.                                                                                   Actual Actual Actual Actual Target
Effect of results on the FY 2003 performance plan: Our FY 2003 target for resolved
recommendations has been lowered to our FY 2000 actual level, while our target for
closed recommendations is unchanged, with both targets set at 85%. We also have
added a measure and target for “significant” recommendations implemented within a
year to measure progress on our most critical recommendations.




                                                                                              10
Performance Goal 2: Evaluate at least eight U.S. government operations and
programs with foreign policy implications—especially those under Chief of
Mission authority or related to international broadcasting and the free flow
of information around the world—identify obstacles to Chief of Mission,
Department, or BBG oversight and coordination of the operations and
programs, and recommend actions necessary to remove or overcome them.
                                                                                                 U.S. Government Operations &
MEASURE: The number of U.S. government operations and programs with
foreign policy implications evaluated. FY 2002 Result: Successful                                Programs with Foreign Policy
  FY 1999           FY 2000            FY 2001           FY 2002           FY 2002                   Implications Reviewed
  ACTUAL            ACTUAL             ACTUAL            ACTUAL            TARGET
                                                                                                              9
       8                 9                 7                  8                 8                9     8                    8
                                                                                                                      7             8
Success in meeting performance target: We met our target and showed a slight                     8
increase from FY 2001, in which our unmet target also was to evaluate eight                      7
government operations and programs. The operations and programs with foreign policy              6
implications evaluated in 2002 included three related to international broadcasting              5
activities, four related to Department operations and programs, and one related to
broader U.S. government activities. Three of these evaluations (U.S. Policy Toward               4
Venezuela, U.S. Support to International Police Task Force in Bosnia, and BBG Middle             3
East Broadcasting Activities and Initiatives) were undertaken in direct response to              2
Congressional requests.                                                                          1
                                                                                                 0
                                                                                                      FY     FY     FY     FY     FY
                                                                                                     1999 2000 2001 2002 2002
Data quality and strategies to address data limitations: The number of operations                    Actual Actual Actual Actual Target
and programs evaluated is based on the number of reports on these subjects that actually
were issued during the fiscal year. They do not include evaluations that were started but
not completed by the end of the fiscal year. These will be reported in our FY 2003
results. We have verified the accuracy and completeness of this performance data.



Effect of results on the FY 2003 performance plan: We have increased our FY 2003
target from 8 to 9.




                                                                                            11
Performance Goal 3: Increase the cumulative number/percentage of missions
and selected bureaus inspected on a five-year cycle.
MEASURE: The percentage of missions and selected bureaus inspected within
the past five years. FY 2002 Result: Partially Successful
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET
     63%                66%                64%                70%                77%                Percentage of Missions Inspected Within
Success in meeting performance target: Although we showed improvement over our FY                               Last Five Years
2001 results, we fell considerably short of our target. This is the direct result of 11
inspections that were conducted in FY 2002, but for which reports were not issued by the
end of the FY (see discussion in data quality and limitations below). Had these reports              80%                                77%
been issued in FY 2002, we would have met our target of 77 percent. Based on the                     70%    63%    66%    64% 70%
number of mission inspections scheduled and a much lower target for the time it takes us
to complete (i.e., issue a product on) all our projects in FY 2003, we expect to achieve our
                                                                                                     60%
FY 2003 target of 73 percent. Although the percentage of missions inspected within the               50%
past five years will decrease in FY 2003, that was anticipated in our long-term plan, and            40%
we will still be on schedule to achieve 100 percent by 2007.                                         30%
Data quality and strategies to address data limitations: Although our performance goal               20%
and measure include references to “selected bureaus,” which we also inspect, our goal to             10%
reach a five-year inspection cycle is targeted toward overseas missions, and the                      0%
percentages reported above include only overseas missions. If selected bureaus were                         FY     FY     FY     FY     FY
included, the results as well as the target would vary from those reported. In addition, the
percentages reflect the number of missions, as a percentage of all overseas missions, for                  1999 2000 2001 2002 2002
which inspection reports have been issued during the FY. If a mission was inspected in FY                  Actual Actual Actual Actual Target
2002 but the report was not issued prior to the end of the FY, it was not included in our FY
2002 results, but will be reported with our FY 2003 data. The data for these measures
come directly from the reports issued during the FY, and we have verified their accuracy
and completeness.
Effects of results on FY 2003 performance plan: This performance goal has been
dropped as a separate goal for FY 2003 and beyond, and included as a measure in support
of our first performance goal under this strategic goal, for which it is a more accurate
indicator. Targets for succeeding years will continue to be set to achieve our goal of a
five-year inspection cycle by the end of FY 2007.




                                                                                               12
                                                                              Strategic Goal: Security

With the growing threat of terrorism and regional instability in the post-9/11 environment, the security of U.S. personnel, facilities, and information has become
an issue of overriding importance. During FY 2002, OIG expanded its program of limited security and intelligence oversight reviews, significantly increasing
its coverage of overseas posts by including a security inspector on all post management inspections. In addition, OIG pilot tested and implemented a new
program of Information Security Evaluation Inspections, which will provide in-depth reviews of the security of Department and BBG domestic and overseas
information systems. Full-scope security inspections also review information security as part of the inspection process.

Our FY 2002 performance goals under this strategic goal focused on evaluating the effectiveness of programs to improve security for Department people,
facilities, and information; identifying and recommending corrective actions to vulnerabilities in Department and BBG information security and systems; and
increasing the percentage of missions inspected as to security at least once every five years, with the intention of inspecting all missions on a five-year cycle by
2007. With respect to our success in meeting these goals, please see below:

•   Evaluate at least six Department programs designed to improve security for its people, buildings, and information and identify any corrective actions
    necessary to ensure that they meet their stated goals. Our efforts to achieve this goal were only partially successful in that we missed our target for one of
    our three quantitative measures, although our results for all three measures exceeded our performance for FY 2001, and the goal was well supported by our
    qualitative work, discussed below, that was performed and reported on in FY 2002.

•   Identify vulnerabilities and recommend corrective action with respect to information security and systems at no fewer than 10 overseas missions. Our
    efforts to achieve this goal were only partially successful in that we fell 30 percent short of our target—which, because this was the first year we started
    performing information security inspection evaluations, was still a significant accomplishment—although the qualitative work conducted and reported on in
    FY 2002 contributed considerably to our success on this goal.

•   Increase the cumulative number/percentage of missions and selected bureaus at which security inspections are conducted each year until all missions
    undergo a security inspection at least once every five years. Our efforts to achieve this goal were only partially successful as we fell slightly short of our
    quantitative target, although we improved on our FY 2001 performance for this measure, and the goal was supported by our qualitative work, discussed
    below, that was performed and reported on in FY 2002.

                                                       Major Accomplishments in Support of This Strategic Goal


                          OIG Activity or Finding                                                                         Results

A vulnerability assessment of the Central Financial Management System                This review and another vulnerability assessment identified similar problems,
application identified system configuration issues that could be corrected without   suggesting that they may exist throughout the Department’s IT infrastructure.
affecting overall network performance or availability, and found that overall, the
associated security features appeared to function correctly and were well managed.


                                                                                        13
                           OIG Activity or Finding                                                                           Results

OIG expanded its security inspections program to encompass limited-scope              OIG has identified deficiencies in emergency procedure programs that are easily
security inspections by including a security inspector on each of the 21 post         correctable, usually requiring little, if any, additional resources, and have a major
management inspections conducted during the second half of FY 2002. These             impact on mission security. Survivors of the most recent vehicle bomb attack
limited scope inspections focused on individual physical security and emergency       against the U.S. consulate in Karachi, Pakistan, noted that the lack of personnel
preparedness, aimed primarily at identifying and correcting weaknesses in the         injury was attributed to the use of the alert system and the instinctive response taken
missions’ ability to defend against a large-scale vehicle bomb attack.                by people due to frequent emergency drills.

A review of the Bureau of Consular Affairs’ (CA) information security program,        The Department has acknowledged that more needs to be done and is actively
conducted in response to public and congressional concern about the Department’s      planning, prioritizing, and working toward bringing each of its active systems fully
ability to manage and process safely consular activities, found that CA has           in line with information security statutes and OMB guidance.
developed a comprehensive approach to addressing information security risks.
Approximately 70% of systems have had risk assessments, and almost 50% are
operating with an overall security plan in place, but only two of CA’s 36 systems
have been certified and accredited.

A major review of domestic security programs, which examined compliance with          Pursuant to an OIG recommendation, the Department transferred responsibility for
earlier recommendations concerning handling of classified information at the          handling the SCI program from the Bureau of Intelligence and Research to the
Department’s Main State facility, found that the Department has made significant      Bureau of Diplomatic Security (DS); reduced the number of offices where SCI is
strides in enhancing the protection of classified information, especially sensitive   processed, read, and discussed; and enhanced physical security for those offices.
compartmented information (SCI).                                                      The Department has also strengthened procedures for reporting security incidents.

A review of the classified connectivity program evaluated the Department’s            As a result of this work, IRM has developed a System Security Authorization
program to deploy a standards-based, global network for secure information            Agreement for C-LAN type accreditation and submitted it to DS for evaluation and
processing and communications to about 250 embassies and consulates worldwide.        implementation. IRM has also developed and tested an IT contingency planning
The Bureau of Information Resource Management is making progress and taking a         toolkit and is working to promote awareness, training, and use of the toolkit among
more structured approach to "C-LAN" modernization, but OIG recommended that           organizations Department-wide.
IRM coordinate with DS to complete the steps needed for C-LAN certification and
accreditation and ensure that information technology contingency planning is
coordinated and carried out in a standardized manner.

An evaluation of the Department's program for providing its employees worldwide       In accordance with OIG report recommendations, the Department has drafted a
with desktop access to the Internet found that the Department has a deliberate        policy to eliminate redundant Internet connections and associated costs once
process for ensuring that bureaus and overseas missions meet established technical,   OpenNet Plus is fully deployed.
physical, security, and management requirements for Internet access before they
are granted connectivity through OpenNet Plus.
                                                                                      DTC recognized the need to improve its munitions export licensing process and
An assessment of automation in the Department's munitions export licensing            systems and has begun developing plans to modernize, but OIG recommended that it
process found that the process managed by the Department's Office of Defense          broaden and coordinate its efforts with representatives from industry, other Department
Trade Controls (DTC), Bureau of Political-Military Affairs, is inefficient,           bureaus and offices, and other federal organizations involved in the munitions export
involving extensive use of manual and paper-based processes, data re-keying, and      licensing process. The bureau agreed with OIG’s recommendations and said that the
inadequate license tracking mechanisms. OIG reported that these problems are due      report’s analysis would serve as a basis for consideration of still further measures to
in part to multiple DTC systems that are independent of one another, as well as a     strengthen the timeliness and overall efficiency of the munitions export licensing
lack of connectivity with systems used by external license review agencies            system to the benefit of U.S. government and industry and foreign markets.

                                                                                         14
Performance Goal 1:Evaluate at least six Department programs designed to                           Security and Inteligence Programs Reviewed and Reports Issued
improve security for its people, buildings, and information and identify any
corrective actions necessary to ensure that they meet their stated goals.
                                                                                                      8                                          7
MEASURE: Programs reviewed and reports issued. FY 2002 Result:                                                           6            6                      6
                                                                                                      6
Successful
                                                                                                      4
  FY 1999            FY 2000            FY 2001            FY 2002             FY 2002                       2
  ACTUAL             ACTUAL             ACTUAL             ACTUAL              TARGET                 2
       2                  6                  6                  7                   6                 0
                                                                                                          FY 1999     FY 2000     FY 2001     FY 2002     FY 2002
MEASURE: Percentage of recommendations resolved within six months of                                       Actual      Actual      Actual      Actual      Target
issuance. FY 2002 Result: Successful
  FY 1999            FY 2000            FY 2001            FY 2002             FY 2002
                                                                                                   Security Recommendations Resolved Within 6 Months of
  ACTUAL             ACTUAL             ACTUAL             ACTUAL              TARGET
                                                                                                                        Issuance
     48%                56%                70%                82%                67%
MEASURE: Percentage of recommendations closed within one year of                                    100%                                         82%
issuance. FY2002 Result: Partially Successful                                                                                         70%
                                                                                                                          56%                                67%
  FY 1999            FY 2000            FY 2001            FY 2002             FY 2002                           48%
                                                                                                      50%
  ACTUAL             ACTUAL             ACTUAL             ACTUAL              TARGET
     55%                60%                60%                64%                82%                   0%
                                                                                                             FY 1999    FY 2000     FY 2001     FY 2002    FY 2002
Success in meeting our performance targets: We exceeded two of the targets for
                                                                                                              Actual     Actual      Actual      Actual     Target
measuring our performance under this goal, but fell short on the more critical target for
recommendations closed within one year. The primary reason for this shortfall was
intermittent staffing gaps in our security compliance unit, which left available staff to
handle unrealistic workloads for various periods. To improve our results, we have filled            Security Recommendations Closed Within 1 Year of Issuance
a vacant position in our security compliance division, are refocusing our resources on
compliance issues, and have formed a new compliance oversight committee that will                  100%
report to the IG quarterly to identify progress and issues in which a more proactive                                                                             82%
approach is needed to meet our FY 2003 targets. We do not expect to achieve our 82%                 80%                               60%         64%
target for recommendations closed until 2005 or 2006.                                                        55%          60%
                                                                                                    60%
Data quality and strategies to address data limitations: A computation error in data                40%
reported in prior years was corrected (the data in this table reflects the correction), and
we have verified the accuracy and completeness of the data we are reporting.                        20%
Effects of results on FY 2003 performance plan: For FY 2003, we have increased the                   0%
                                                                                                            FY 1999     FY 2000     FY 2001     FY 2002      FY 2002
target for recommendations resolved and programs reviewed to match our FY 2002                               Actual      Actual      Actual      Actual       Target
levels of 82% and 7 respectively, and have lowered the target for recommendations
closed to 67%. We also have added a measure and target for “significant”
recommendations closed within a year.



                                                                                              15
Performance Goal 2: Identify vulnerabilities and recommend corrective
action with respect to information security and systems at no fewer than 10
overseas missions.
MEASURE: Number of Information Security Inspection Evaluations
performed at overseas missions. FY 2002 Result: Partially Successful
  FY 1999           FY 2000            FY 2001            FY 2002           FY 2002
  ACTUAL            ACTUAL             ACTUAL             ACTUAL            TARGET
     N/A                N/A               N/A                 7                 10
                                                                                                   Information Security Inspection
Success in meeting our performance target: We did not achieve our target of 10
evaluations, having performed and issued reports on only seven of those evaluations               Evaluations Performed at Overseas
(one report was still in process) by the end of the FY. This was due partly to a decision,
made early in the FY, further to refine our new methodology—this was the first year
                                                                                                               Missions
that we began conducting such inspections—by piloting it at four domestic bureaus
before traveling to overseas missions. In addition to the seven missions inspected                                                    10
during FY 2002, we conducted information security inspection evaluations at five                   10
domestic bureaus as well. These reviews were supplemented by information security
reviews conducted as part of our full-scope security inspections.                                   8                          7
                                                                                                    6
                                                                                                    4
Data quality and strategies to address data limitations: The number of missions                     2
receiving information security inspection evaluations, as reported under this measure, is                 0      0       0
based on the number of reports that were actually issued during the fiscal year. They do            0
not include one evaluation that was started but not completed by the end of the fiscal                   FY     FY     FY     FY     FY
year. This will be reported in our FY 2003 results. We have verified the accuracy and
completeness of this data.                                                                              1999 2000 2001 2002 2002
                                                                                                        Actual Actual Actual Actual Target




Effects of results on FY 2003 performance plan: Our goal and measure remains
unchanged, but we have reduced our target for the number of evaluations to be
conducted in FY 2003 from 20 to 15 missions.




                                                                                             16
Performance Goal 3: Increase the cumulative number/percentage of missions
and selected bureaus at which security inspections are conducted each year
until all missions undergo a security inspection at least once every five years.
MEASURE: Percentage of missions and selected bureaus receiving a security
inspection or review within the past five years. FY 2002 Result: Partially
Successful
  FY 1999           FY 2000            FY 2001            FY 2002            FY 2002
  ACTUAL            ACTUAL             ACTUAL             ACTUAL             TARGET
     59%               59%                73%               79%                85%
Success in meeting our performance target: Although we showed improvement over                    Percentage of Missions Receiving Security
our FY 2001 results, we fell short of our FY 2002 target. This is the direct result of 10
inspections that were conducted in FY 2002 but whose reports were not issued by the end               Inspections Within Last Five Years
of the FY (see discussion in data quality and limitations below). Had these reports been
issued in FY 2002, we would have met our target of 85 percent. Based on the number of
mission inspections scheduled and a much lower target for the time it takes us to                  100%
complete (i.e., issue a product on) all our projects in FY 2003, we expect to achieve our                                 73% 79%       85%
FY 2003 target to conduct security inspections at 90 percent of overseas missions.                   80%
                                                                                                            59%    59%
Data quality and strategies to address data limitations: Although our performance                    60%
goal and measure include references to “selected bureaus,” we have not performed
security inspections of any domestic bureaus, leaving that to DS. Our goal to reach a                40%
five-year inspection cycle is targeted toward overseas missions, and the percentages
reported above include only overseas missions. If selected bureaus also were included,               20%
the results as well as the target would vary from those reported. The measure will be
changed to reflect this narrower focus in the future. In addition, the percentages reflect            0%
the number of missions, as a percentage of all overseas missions, whose inspection                          FY     FY     FY     FY     FY
reports have been issued during the FY. If a mission was inspected in FY 2002 but the
report was not issued prior to the end of the FY, it was not included in our FY 2002
                                                                                                           1999 2000 2001 2002 2002
results, but it will be reported with our FY 2003 data. The data for these measures come                   Actual Actual Actual Actual Target
directly from the reports issued during the FY, and we have verified their accuracy and
completeness.
Effect of results on the FY 2003 performance plan: This performance goal has been
dropped for FY 2003 and beyond and included as a measure in support of our first
performance goal under this strategic goal, for which it is a more accurate indicator. Our
FY 2003 target remains at 90%, and targets for succeeding years will continue to be set
to achieve our goal of conducting security inspections on a five-year inspection cycle by
the end of FY 2007.




                                                                                             17
                                    Strategic Goal: Financial Management and Administrative Support Systems

A significant portion of the foreign affairs budget is devoted to developing, maintaining, and securing the infrastructures—including physical facilities,
information systems, financial management, grants management, procurement, personnel systems, and administrative support services—that underlie and
support the Department’s operations and provide a base for the conduct of U.S. foreign policy. A major part of OIG resources are devoted to efforts in support
of this goal, including addressing systemic weakness and security vulnerabilities; ensuring accountability for the estimated $3 billion in federal financial
assistance, including grants and cooperative agreements, that is administered by the Department; and working with the Department and BBG to identify
opportunities to streamline operations and reduce infrastructure and operational costs, inefficiency, and redundancy while increasing effectiveness, where
possible.

Our FY 2002 performance goals under this strategic goal focused on identifying, and recommending solutions to, vulnerabilities in Department and BBG
financial and administrative support programs and activities, and evaluating the Department’s and BBG’s progress in measuring performance and linking
performance to budget. With respect to our success in meeting these goals, please see below:

•   Identify challenges and vulnerabilities with recommendations to address them for at least 15 Department financial and administrative support programs
    and activities. Our efforts to achieve this goal were only partially successful because, although significantly exceeding our first quantitative measure, we
    fell considerably short on our other two measures for recommendations resolved and implemented. We did manage to show considerable improvement over
    our FY 2001 results for the more important measure of recommendations implemented. In addition, this goal was supported by the qualitative work,
    discussed below, that was performed and reported on in FY 2002.

•   Evaluate Department and BBG progress in measuring performance and linking performance goals to budget, recommending improvements, as
    appropriate. Our efforts to achieve this goal were successful, having exceeded both our FY 2002 target and our performance for prior years.


                                                      Major Accomplishments in Support of This Strategic Goal


                          OIG Activity or Finding                                                                            Result

An inspection of BBG regional operations in West Africa highlighted mismanagement     BBG and the Department now are sensitized to the reasons for the problems that occurred,
that resulted in the loss of more than $200,000 in broadcasting equipment and had a   greatly lessening the likelihood of significant loss in the future.
negative effect on the placement of VOA programs on the air in VOA’s top listening
region in the world.

A review of the BBG’s controls on domestic personal property highlighted weaknesses   In response, BBG has completed its first system-wide inventory since independence and
in internal controls.                                                                 created a reliable baseline. A central or limited number of receiving points will be
                                                                                      established, and discipline brought to bear for employees who habitually lose U.S.
                                                                                      government property in their care.


                                                                                        18
                             OIG Activity or Finding                                                                                  Results

A review of administrative operations of RFE/RL highlighted vulnerabilities from             RFE/RL agreed to seek permanent slots with benefits for its administrative support staff
possible lagging compliance with host government laws regulating employment tax and          serving its 30 bureaus. With some host country regimes becoming less tolerant of a free
social contributions for bureau staff.                                                       press, maintaining the timely regularization of the bureaus with respect to local tax laws
                                                                                             will remove a potential technical excuse either to intimidate journalists or close a bureau.

The review of BBG’s Broadcast Affiliates Program found that the program used many            At OIG urging, the BBG has completed a strategic plan that seeks to focus resources on
of its limited resources for low performing affiliates.                                      higher quality and better performing affiliates.

A review of intragovernmental receivables determined that the Department did not             Recommendations to correct these anomalies are being addressed by the Department, in
properly account for $93.8 million owed to the Department by other agencies,                 support of the President’s Management Agenda initiative to improve financial
resulting in significant overstatement of accounts receivable estimated at the end of        performance.
the fiscal year.

A review of the Department’s Regional Procurement Support Offices (RPSO) found               Recommendations to correct these anomalies are being addressed by the Department, in
significant accounting anomalies that distorted financial operating results and              support of the President’s Management Agenda initiative to improve financial
hindered RPSO management in carrying out its functions.                                      performance.

A survey of Civil Service Leadership Training found that the Department’s                    As a result of OIG’s survey and briefings with the Bureau of Human Resources (HR)
Leadership Competencies Development Initiative (LCDI) recognized the importance              and the Foreign Service Institute (FSI), the Department updated its HR website
of leadership training for Civil Service employees but that more than half of the            regarding the LCDI leadership training, and announced a new Training Continuum for
employees interviewed were unaware of the program.                                           Civil Service Employees and a new Leadership and Management Training Continuum.

A review of a grantee in China was undertaken at the request of the ambassador to            OIG found that the fund was making a good faith effort to respond to Department
ensure that U.S. funds were being used effectively, based on concerns about the              concerns by taking actions to improve operations and programs, including hiring and
grantee’s financial management.                                                              training additional staff and conducting project audits and reviews.

Inspections of U.S. embassies in Tbilisi, Georgia; Yerevan, Armenia; and Baku,               Based on OIG findings and recommendations, the Department has eased the restrictions
Azerbaijan, found that overly restrictive requirements for employees to receive              on receiving incentive differentials at these posts, increasing the chances that the incentive
incentive differentials for serving at these difficult posts created the potential for       program will achieve its objective of retaining qualified employees in difficult-to-fill
excessive staff turnover.                                                                    posts.

A review to assess the adequacy of the internal controls over cashiering operations and      The Department accepted and has begun implementing OIG’s recommendations,
blank passports found that established procedures that would minimize the risk of            including developing a software package for fee reconciliation and instituting checks and
malfeasance are not implemented consistently at five of the six passport agencies, and       balances for monitoring blank passports and procedures for depositing cash collections
the unannounced adjudication audit program is not achieving its primary objective of         daily.
preventing and detecting malfeasance.

OIG identified critical infrastructure needs due to old, inadequate, and overcrowded         The Department’s Office of Overseas Buildings Operations has been consistently
facilities in all geographic regions, along with significant additional resource require-    responsive and acted promptly in addressing all of the deficiencies and problems
ments for renovating or relocating all of the missions that have security vulnerabilities.   identified in the course of OIG inspections.




                                                                                               19
                                                                                                    Financial and Administrative Support Programs and Activities Reviewed and
Performance Goal 1: Identify challenges and vulnerabilities with                                                                  Reports Issued
recommendations to address them, for at least 15 Department financial and
administrative support programs and activities.                                                          25                                         21
MEASURE: Programs reviewed and reports issued. FY 2002 Result:                                           20                              15
Successful                                                                                               15       13         14                                15
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002                    10
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET                      5
                                                                                                          0
      13                 14                 15                 21                 15                          FY 1999     FY 2000     FY 2001    FY 2002    FY 2002
                                                                                                               Actual      Actual      Actual     Actual     Target
MEASURE: Percentage of recommendations resolved within six months of
issuance. FY2002 Result: Unsuccessful
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002                    Financial Mangagement and Administrative Support
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET                   Recommendations Resolved Within 6 Months of Issuance
     52%                72%                65%                44%                79%
                                                                                                       80%                   72%                               79%
MEASURE: Percentage of recommendations closed within one year of                                                                         65%
issuance. FY 2002 Result: Partially Successful                                                         60%        52%
                                                                                                                                                    44%
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002                  40%
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET                   20%
     40%                72%                26%                58%                92%                     0%
                                                                                                               FY 1999 FY 2000        FY 2001     FY 2002 FY 2002
Success in meeting our performance targets: We significantly exceeded our target for                            Actual  Actual         Actual      Actual  Target
programs reviewed and reports issued but missed our targets for resolving and closing
recommendations within the target timeframes. The primary reason for this shortfall was
the decision to try to close the backlog of our oldest recommendations (open for more
                                                                                                           Financial Management and Administrative Support
than one year) first. While we reduced these by about 25%, it meant expending fewer
                                                                                                          Recommendations Closed Within 1 Year of Issuance
resources on our measured recommendations. To improve our results, we have formed a
new compliance oversight committee, reporting quarterly to the Inspector General to
identify progress and issues requiring more proactive approach to meet our revised FY                100%                                                        92%
2003 targets. We do not anticipate meeting our FY 2002 targets before FY 2005 or 2006.
                                                                                                      80%                     72%
Data quality and strategies to address data limitations: A computation error in data                                                                 58%
reported in prior years was discovered (the data in this table reflects the correction), and
                                                                                                      60%
                                                                                                                  40%
we have verified the accuracy and completeness of the FY 2002 data in our compliance                  40%                                 26%
analysis tracking system, as well as the number of programs evaluated and reports issued.             20%
Effects of results on FY 2003 performance plan: Our FY 2003 targets for both                           0%
recommendations resolved within 6 months and those closed within 1 year have been                               FY 1999     FY 2000    FY 2001     FY 2002     FY 2002
lowered to our prior “highs” of 72%. In addition, we have added a measure and target                             Actual      Actual     Actual      Actual      Target
for “significant” recommendations implemented within a year to measure progress on
those recommendations whose implementation is especially important. Our FY 2003
target for programs reviewed has been raised from 15 to 21.


                                                                                               20
Performance Goal 2: Evaluate Department and BBG progress in measuring
performance and linking performance goals to budget, recommending
improvements, as appropriate.
MEASURE: Number of reports issued. FY 2002 Result: Successful
  FY 1999           FY 2000           FY 2001            FY 2002           FY 2002
  ACTUAL            ACTUAL            ACTUAL             ACTUAL            TARGET
       4                 4                 4                 5                  5                   Reports Issued Evaluating Department
Success in meeting our performance target: We met our target, which also showed                     Success in Measuring Performance or
improvement over prior years’ results. In addition, every audit plan included steps to
review and assess applicable goals and measures related to the program or mission being             Linking Performance Goals to Budget
reviewed, and each post inspection looked at the mission and relevant bureau
performance plans. Unless significant issues were discovered, these were not discussed                                         5       5
in the reports that resulted and were not counted in our performance data.                      5
                                                                                                       4       4       4
                                                                                                4
                                                                                                3
                                                                                                2
Data quality and strategies to address data limitations: The data for this measure is
based on reports issued that, in whole or in part, address performance measurement or           1
linking performance goals to budget. We have verified the completeness and accuracy of
the data.                                                                                       0
                                                                                                    FY 1999 FY 2000 FY 2001 FY 2002 FY 2002
                                                                                                     Actual  Actual  Actual  Actual  Target



Effects of results on FY 2003 performance plan: For FY 2003, we have revised the
goal and the measure to reflect Department and BBG progress in meeting the President’s
Management Agenda, especially initiatives on integrating budget and performance and
rightsizing overseas missions. To reflect our increased emphasis on these issues, we are
raising our target from 5 reports issued in FY 2002 to 12 in FY 2003.




                                                                                           21
                                                                    Strategic Goal: Accountability

All government employees must conform to fundamental guiding principles governing professional and ethical conduct. The standards derived from these
principles, as defined in law, executive order, regulation, policy, and procedure, encompass a broad range of professional and ethical behavior, as well as
personal and management accountability. One of the ways in which OIG promotes accountability and integrity in Department programs and operations is
through audits of federal assistance and contracts to nongovernmental organizations that conduct federal programs and other related activities. OIG conducts
audits of selected grantees and contractors to determine whether the organizations expended federal funds for the intended purpose of the agreement and in
accordance with applicable federal laws and regulations related to the agreement terms and conditions. OIG also is mandated to prevent and detect waste,
fraud, and mismanagement. Specific allegations or other information indicating possible violations of law or regulation are investigated by OIG investigators,
supported by experts from other OIG offices, as appropriate. In addition, OIG works proactively to educate and share best practices with targeted audiences—
such as new ambassadors, deputy chiefs of mission, and Foreign and Civil Service employees—to improve adherence to standards of accountability by
ensuring that employees of the foreign affairs agencies are informed of and understand the standards specific to their professional and ethical conduct.

Our FY 2002 performance goals under this strategic goal focused on identifying potential monetary benefits as a result of our audit and investigative work to
improve operations and compliance with contract and grantee agreements; identifying fraud, waste, abuse and mismanagement; increasing awareness and
adherence to standards of professional and ethical conduct and accountability; and conducting thorough and expeditious investigations. With respect to our
success in meeting these goals, please see below:

•    Identify a minimum of $3.75 million in potential monetary benefits as a result of audit and investigative recommendations to identify fraud, waste, abuse,
     and mismanagement and to improve the efficiency of Department and BBG operations and compliance with applicable contracts and grant agreements.
     Our efforts to achieve this goal were successful as we exceeded our FY 2002 target by more than 1000 percent and our FY 2001 results by more than 300
     percent.

•    Promote awareness and adherence to standards of professional and ethical conduct and accountability; where necessary, conduct thorough and
     expeditious investigations of fraud, waste, abuse, and mismanagement. Our efforts to achieve this goal were only partially successful as we missed our
     target for investigations open at the end of the year, although we exceeded our FY 2001 performance. For our target on investigations closed during the
     year, we exceeded both our target and our FY 2001 and prior years’ performance.


                                                    Major Accomplishments in Support of This Strategic Goal


                        OIG Activity or Finding                                                                      Result
During FY 2002, OIG completed 16 audits of Department and BBG contractors and   The audits identified $17,663,151 in potential questioned costs or funds put to better
grantees, several of which were undertaken at the request of Congress.          use, and contributed to the President’s Management Agenda initiative to improve
                                                                                financial performance.



                                                                                 22
                          OIG Activity or Finding                                                                           Result
Sentencing was completed in an OIG investigation of a Northern Virginia company         One defendant was sentenced to 124 months’ imprisonment, the other to 112
involved in a large-scale scheme to use the EB-5 investor visa program fraudulently.    months’ imprisonment, and both were ordered to serve three years’ supervised
                                                                                        release upon completion of their prison terms. The court ordered them jointly to
                                                                                        make restitution of $17.6 million to victims of the scheme.

A joint investigation with the Department of Labor, the Immigration and                 The investigation led to the arrest of two individuals, one of whom was sentenced to
Naturalization Service, and the Internal Revenue Service found that a Department        97 months’ imprisonment; the other awaits trial.
personal services contractor and a Virginia immigration attorney were engaged in
employment-based immigration fraud.

An investigation of excessive post assignment travel costs at Embassy Lusaka found      A Zambian national living in the United States pleaded guilty to conspiring to
that approximately $2.5 million had been sent to bank accounts assigned to bogus        receive stolen government money. He was sentenced to 30 months’ imprisonment
vendors who had provided no services to the Department.                                 and ordered to pay more than $2 million in restitution.

Sentencing was completed in the arrest of a Foreign Service officer convicted of        Approximately $2.5 million in cash, gold bars, and other assets were forfeited as
conspiring to sell visas while employed as a consular officer at a U.S. embassy.        a result of the guilty plea. The officer was sentenced to 262 months in prison.

Based on information received from the U.S. Border Patrol, an OIG investigation found   Four Mexican nationals were terminated from employment at the consulate.
that two FSNs employed at a U.S. consulate had conspired to issue approximately 60
laser visas to ineligible Mexican nationals.

Although no longer one of our measures, OIG has continued to provide presentations to   Embassy leaders and incoming employees are more aware and better understand
seminars and courses for Ambassadors, Deputy Chiefs of Mission, and incoming            the role of the OIG and the ways in which it can contribute to the efficiency,
Foreign Service officers and Civil Service employees.                                   effectiveness, and integrity of their operations, as well as having better
                                                                                        understanding of the standards of accountability and ethical conduct governing
                                                                                        federal service.




                                                                                         23
Performance Goal 1: Identify a minimum of $3.75 million in potential
monetary benefits as a result of audit and investigative recommendations to
identify fraud, waste, abuse, and mismanagement and to improve the
efficiency of Department and BBG operations and compliance with
applicable contracts and grant agreements.
MEASURE: The potential value of efficiencies identified in OIG                                          Potential $ Value of Efficiencies
recommendations. FY 2002 Result: Successful                                                           Identified in OIG Recommendations
  FY 1999           FY 2000           FY 2001           FY 2002           FY 2002
  ACTUAL            ACTUAL            ACTUAL            ACTUAL            TARGET
                                                                                                          $50                             $40.04
   $9.36             $3.23             $12.49             $40.04            $3.75
   million           million           million            million           million                       $40




                                                                                               Millions
Success in meeting our performance target: We significantly exceeded our FY                               $30
2002 target by more than 1000 percent and our FY 2001 performance by 300 percent.
This was largely the result of one investigation (resulting in $17.6. million in court-                   $20    $9.36           $12.49
ordered restitution to the victims of the fraud scheme) and two audits that accounted                     $10            $3.23                     $3.75
for approximately $17 million. Investigations and audits leading to such large
amounts cannot reasonably be expected to recur in FY 2003 or beyond.                                       $-
                                                                                                                 FY     FY     FY     FY     FY
                                                                                                                1999 2000 2001 2002 2002
Data quality and strategies to address data limitations: The data for these                                     Actual Actual Actual Actual Target
measures come directly from our reports, and we have verified their accuracy and
completeness. However, it should be noted that these monetary benefits are only
“potential,” and the actual recoveries and funds eventually returned or put to better
use may be substantially lower.


Effects of results on FY 2003 performance plan: Although our results for the last
two years were due largely to a few audits and investigations that identified
exceptionally high dollar amounts that cannot expect to be repeated in the future, the
results of three of the last four years and an increased emphasis on trying to identify
opportunities for monetary benefits have led us to increase our prior FY 2003 target
by more than 90 percent, to $7.8 million.




                                                                                          24
Performance Goal 2: Promote awareness and adherence to standards of
professional and ethical conduct and accountability; where necessary, conduct                        Days Ongoing Employee Investigations Were
thorough and expeditious investigations of fraud, waste, abuse, and                                          Open at the End of the FY
mismanagement.
MEASURE: Of routine employee investigations open at the end of FY 2002, at
least 45% will be open for less than 100 days and no more than: (1) 30% for100-                                     100%




                                                                                                       Percent of
200 days; (2) 5% for 201-300 days; and (3) 20% for more than 300 days.




                                                                                                         Cases
FY 2002 Result: Partially Successful                                                                                 50%
  FY 1999            FY 2000           FY 2001            FY 2002             FY 2002
  ACTUAL             ACTUAL            ACTUAL             ACTUAL              TARGET                                  0%
                                                                                                                            FY     FY     FY     FY     FY
9% < 100          45% <100           26% <100           45% <100           45% <100                                        1999 2000 2001 2002 2002
25%@100-200       30%@100-200        21%@100-200        5% @100-200        30%@100-200                                     Actual Actual Actual Actual Target
16%@200-300       0%@201-300         16%@201-300        20%@201-300        5%@201-300
50% > 300         25% > 300          37% > 300          30% > 300          20% > 300               <100 days          100-200 days        201-300 days      >300 days
MEASURE: Of the routine employee investigations closed during FY 2002, at least
45% will be open for less than 100 days and no more than: (1) 15% for 100-200
days; (2) 5% for 201-300 days; and (3) 35% for more than 300 days.
FY 2002 Result: Successful
                                                                                                            Days to Close Employee Investigations
                                                                                                                     Completed in the FY
  FY 1999            FY 2000            FY 2001            FY 2002            FY 2002
  ACTUAL             ACTUAL             ACTUAL             ACTUAL             TARGET
20% <100          27% <100           53% <100           58% <100           45% <100                                 100%




                                                                                                      Percent of
19%@100-200       20%@100-200        20%@100-200        17%@100-200        15%@100-200




                                                                                                       Cases
15%@201-300       10%@201-300        7%@201-300         8%@201-300         5%@201-300
                                                                                                                    50%
46% > 300         43% > 300          20% > 300          17% > 300          35% > 300
                                                                                                                     0%
Success in meeting performance targets: We missed our targets for open cases, although                                      FY     FY     FY     FY     FY
we showed improvement from FY 2001, and we exceeded our targets for closed cases. Our                                      1999 2000 2001 2002 2002
efforts under this goal were hindered by a second straight year of significant turnover and
                                                                                                                           Actual Actual Actual Actual Target
vacancies in investigative positions. We began a major hiring program at the end of FY 2002
to address this problem. Absent undue delays in clearing and training new agents, we expect
to achieve our slightly higher targets in FY 2003 as planned.                                      <100 days          100-200 days       201-300 days      >300 days
Data quality and strategies to address data limitations: We verified the accuracy and
completeness of the data as found in the INV case management system.
Effect of results on the FY 2003 performance plan: Our targets for FY 2003 have been
revised to focus on improving the timeliness of cases open for more than 200 days.


                                                                                              25
                                                                             Internal Enabling Goals

In addition to the performance goals supporting our four strategic goals, OIG has established two internal “enabling” goals that support our remaining strategic
goals by ensuring that we have the people we need and that our work results in timely products. These and several other initiatives related to internal
management improvements, discussed below, are directed toward ensuring that OIG operations are efficient, effective, and well-structured to achieve OIG’s
core statutory mission.

Our FY 2002 performance goals under our internal enabling goals focused on attracting and retaining employees with needed professional skills and
experience, and issuing a final report or other product within seven and a half months (225 days) of starting a project. With respect to our success in meeting
these goals, please see below:

•   Attract and retain employees with the requisite professional skills and experience in the areas of foreign policy, financial auditing, investigations,
    information technology, security, and other areas of need. Our efforts to achieve this goal were unsuccessful. Not only did we not achieve our target of
    having 225 staff on hand at the end of FY 2002, but we had fewer staff on hand than at the end of FY 2001. We successfully met our target of ensuring that
    the attrition rate did not exceed 15%, but were unable to fill every position that became vacant during the year, contributing to the shortfall on our target for
    staff on hand.

•   Issue a final report or other product within seven and a half months (225 days) of starting a project. Our efforts to achieve this goal were only partially
    successful, falling significantly short of achieving our FY 2002 target, although we did show some improvement over our FY 2001 results. In addition,
    although the average length for projects started in prior fiscal years and completed in FY 2002 was 353 days, the average for projects started and completed
    in FY 2002 was 210 days. Overall, half of our projects were completed within our target.


                                                 Major Accomplishments in Support of This Internal Enabling Goal


                          OIG Activity or Finding                                                                       Results

OIG reorganized its operations along functional lines, and reduced the number of   The reorganization enabled OIG to focus its resources more effectively on its core,
Senior Executive Service positions                                                 statutory mission and resulted in a flatter, more streamlined organization.

OIG increased the emphasis on completing projects in a more timely fashion and     OIG issued 49 more reports—a 50% increase—over FY 2001.
using staff more efficiently and effectively.




                                                                                      26
                        OIG Activity or Finding                                                                             Results

OIG implemented two new information management systems—the Project                    The PTS allows OIG to track the status, timeliness, and resources devoted to all
Tracking System, which was piloted in FY 2001 and implemented during FY 2002          OIG projects. The OTS, which is linked to PTS, tracks employee time expended on
and the OIG Timesheet System, which was pilot tested during FY 2002 and               projects and various indirect and administrative activities. Together the two systems
implemented for all OIG employees effective October 1, 2002.                          allow OIG to manage its resources more efficiently and effectively, and to monitor
                                                                                      the timeliness and costs of its projects and support activities.

OIG established a new Workforce Planning and Development Unit to increase the         The new unit has issued a formal training policy, established a leadership and
emphasis on employee development, leadership and management training, and             management training program to focus greater attention on developing leadership
targeted recruiting.                                                                  skills, established mandatory equal employment opportunity (EEO) training, and
                                                                                      placed greater emphasis on individual development and training plans and
                                                                                      acclimating new employees through a formal sponsorship and orientation program.




                                                                 Activities Undertaken in Support of the
                                                                    President’s Management Agenda

The table below identifies activities undertaken by OIG during FY 2002 that support initiatives of the President’s Management Agenda.

President’s Management Agenda Initiative                                                                 OIG Activities

Strategic Management of Human Capital                    Department of State’s Foreign Service “Up-or-Out” System

Competitive Sourcing                                     Review of U.S. Support to International Police Task Force in Bosnia
                                                         Review of Overseas Explosive Detection Program

Improved Financial Performance                           Financial Statement audits required under the Chief Financial Officers Act of 1990
                                                         Audits of Department and BBG contractors and grantees
                                                         Audits of Regional Procurement Support Offices, Freight Forwarding, Intragovernmental Receivables,
                                                         Intragovernmental Activity and Balances, and Central Financial Management System Vulnerability Assessment

Expanded Electronic Government                           Streamlined Processes and Better Automation Can Improve Munitions License Reviews
                                                         Challenges to Successful OpenNet Plus Implementation

Budget and Performance Integration                       Financial Statement audits

Rightsizing of U.S. Overseas Presence                    Reviewed as an area of emphasis during more than 50 post management inspections conducted during FY 2002




                                                                                         27
Internal Performance Goal 1: Attract and retain employees with the requisite
professional skills and experience in the areas of foreign policy, financial                            Staff on Hand at End of FY
auditing, investigations, information technology, security and other areas of
need.
                                                                                                  260     256
MEASURE: OIG will have 225 staff on hand at the end of FY 2002.
FY 2002 Result: Unsuccessful                                                                      250
  FY 1999            FY 2000            FY 2001           FY 2002            FY 2002              240
  ACTUAL             ACTUAL             ACTUAL            ACTUAL             TARGET               230                    223           225
                                                                                                                 218           218
     256                218                223                218                225              220
MEASURE: OIG’s annual attrition rate will not exceed 15%.                                         210
FY 2002 Result: Successful                                                                        200
                                                                                                  190
  FY 1999            FY 2000            FY 2001           FY 2002            FY 2002
                                                                                                          FY     FY     FY     FY     FY
  ACTUAL             ACTUAL             ACTUAL            ACTUAL             TARGET
                                                                                                         1999 2000 2001 2002 2002
     17%                17%               16%                13%                15%
                                                                                                         Actual Actual Actual Actual Target
Success in meeting performance targets: We not only did not achieve our most
important target under this goal—to have 225 staff on hand at the end of the FY—but
had fewer staff on hand than we did at the end of the prior FY. While the attrition rate
was less than both our target and prior years, we were unable to fill every position that
became vacant. Our ability to achieve this target was hindered by the lengthy clearance
process that is required before new hires can come on board and the number of staff that                   Annual Attrition Rate
left OIG toward the end of the FY, making it impossible to replace them before the end
of the year. While we were able to supplement these shortages with WAEs (retired
Foreign Service annuitants) and contract staff, these are only short-term solutions.              20%
Faced with an uncertain budget because of the continuing resolution still in effect at the
                                                                                                           17%   17%    16%
time of this revision, we have lowered our FY 2003 target for staff on hand and do not
                                                                                                  15%                          13%    15%
expect to meet or exceed our FY 2002 target until FY 2004 or beyond, when our budget
should allow us to fund the additional staff.
                                                                                                  10%
Data quality and strategies to address data limitations: We have verified the accuracy
and completeness of the FY 2002 data, as reported in OIG’s official personnel records
and the Department’s payroll system.                                                               5%
Effect of results on the FY 2003 performance plan: As a result of our FY 2002 results              0%
and the uncertainty over our final FY 2003 budget following months of operating under a                   FY     FY     FY     FY     FY
continuing resolution, we have lowered our FY 2003 target for staff on hand to 218.
Our FY 2003 targeted attrition rate of 11 percent remains unchanged.                                     1999 2000 2001 2002 2002
                                                                                                         Actual Actual Actual Actual Target



                                                                                             28
Internal Performance Goal 2: Issue a final report or other product within
seven and a half months (225 days) of starting a project
MEASURE: The average number of days to complete a project.
FY 2002 Result: Partially Successful
  FY 1999            FY 2000           FY 2001            FY 2002            FY 2002
  ACTUAL             ACTUAL            ACTUAL             ACTUAL             TARGET
  277 days           267 days           252 days           250 days          225 days
Success in meeting our performance target: We fell significantly short of achieving
                                                                                                   Average Number of Days to Complete
this target and showed only minimal progress from our FY 2001 results. This was partly                         Projects
due to an increase of almost 50 percent in the number of projects started during the
year—in expectation of being able to do more by doing them faster. Although, for the
most part, the fieldwork related to the projects was completed in a relatively timely              300    277    267
manner, the increased number of projects reaching the report writing, review, editing,                                   252   250
clearance, printing, and distribution points at the same time led to unanticipated delays.         250                                225
However, OIG also issued 49 (50%) more reports in FY 2002 than in FY 2001.
Furthermore, although the overall average was 250 days, the average for projects started           200
in FY 2002 was 210 days (well below our target). The average for projects carried over
from prior years was 353 days—but many of these were already well beyond 225 days at               150
the start of the FY. Overall, half of our projects were completed within 225 days, and             100
two-thirds of those started and completed in FY 2002 were under that target as well. We
have revised our work flow and processes accordingly to eliminate or reduce those points            50
at which the delays we experienced in FY 2002 can occur. We expect to achieve our
target of 6 months (183 days) from project start to report issuance in FY 2003.                      0
Data quality and strategies to address data limitations: The data for these measures
                                                                                                          FY     FY     FY     FY     FY
comes from our project tracking system (PTS) and is based on projects completed during                   1999 2000 2001 2002 2002
the fiscal year (even if they were started in prior years). We have verified their accuracy
and completeness as far as representing the data found in PTS. However, we were                          Actual Actual Actual Actual Target
unable to verify that the data entered into PTS accurately reflected all actual start and
completion dates. We have tried to address this in FY 2003 by linking PTS with our OIG
timesheet system so that the start and completion dates are linked to the dates when staff
charge time to a project.



Effects of results on FY 2003 performance plan: This measure and target remain the
same for FY 2003. However, we also have added another measure and target for the
percentage of projects completed within 183 days to provide a more accurate assessment
of our project length than an overall average can provide.




                                                                                              29
